             OFFICE OF
      THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION


          SINGLE AUDIT OF THE
           STATE OF MONTANA
         FOR THE 2-YEAR PERIOD
           ENDED JUNE 30, 2001

   December 2002         A-77-03-00006




  MANAGEMENT
ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                SOCIAL SECURITY
MEMORANDUM

Date:   December 16, 2002                                                 Refer To:

To:     Candace Skurnik
        Acting Director
        Management Analysis and Audit Program Support Staff

From:   Assistant Inspector General
         for Audit

Subject:   Management Advisory Report: Single Audit of the State of Montana for the
           2-Year Period Ended June 30, 2002 (A-77-03-00006)


        This report presents the Social Security Administration’s (SSA) portion of the single
        audit of the State of Montana for the 2-year period ended June 30, 2002. Our objective
        was to report internal control weaknesses, noncompliance issues, and unallowable
        costs identified in the single audit to SSA for resolution action.

        The Montana Legislative Auditor performed the audit. The Department of Health and
        Human Services’ (HHS) desk review concluded that the audit met Federal
        requirements. In reporting the results of the single audit, we relied entirely on the
        internal control and compliance work performed by the Legislative Auditor and the
        reviews performed by HHS.

        For single audit purposes, the Office of Management and Budget assigns Federal
        programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
        Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
        CFDA number 96. SSA is responsible for resolving single audit findings reported under
        this CFDA number.

        The Montana Disability Determination Services (DDS) performs disability
        determinations under SSA’s DI and SSI programs in accordance with Federal
        regulations. The DDS is reimbursed for 100 percent of allowable costs. The Montana
        Department of Public Health and Human Services (DPHHS) is the Montana DDS parent
        agency.
Page 2 - Candace Skurnik

DPHHS did not:

1. Control its financial management structure. Specifically, DPHHS did not support
   Federal reporting, allocate costs between State and Federal programs, or prevent
   discrepancies between the State’s primary accounting system and the Department’s
   subsystems.

2. Reconcile its automated data processing subsystems to the State’s primary
   accounting system, resulting in financial records possibly being misstated (see
   Attachment A).

Implementation of the corrective action plan is in process to improve financial controls.
Work groups have been established to review reconciliation activities and establish
additional procedures to improve the automated data processing subsystems.

We recommend SSA ensure DPHHS implement:

1. Financial management controls to ensure accountability and compliance with State
   and Federal laws and regulations.

2. Policies and procedures to ensure timely completion and resolution of reconciliations
   between the State’s accounting system and DPHHS’ various subsystems.

The single audit also disclosed the following findings that may impact DDS operations
although they were not specifically identified to SSA. We bring these matters to your
attention as they represent potentially serious service delivery and financial control
problems for the Agency (see Attachment B).

·   The Department of Administration was unable to reconcile bank account records to
    the State’s accounting records.

·   Controls were not in place to ensure that interest calculation spreadsheets were
    accurate and reconciled with the accounting records.

·   DPHHS drew cash earlier than the clearance patterns established in the Cash
    Management Improvement Act agreement.

·   DPHHS did not adhere to Federal regulations for the review and analysis of data
    processing and system security issues.

·   Procedures were not followed to verify that contractors were not suspended or
    debarred.

·   Expenditure and cash draw records did not identify that expenditures occurred in the
    period for which the Federal award was available.
Page 3 - Candace Skurnik

·   Procedures were not in place to ensure accounting records supported Federal
    reports.

Please send copies of the final Audit Clearance Document to Mark Bailey in
Kansas City and Paul Wood in Baltimore. If you have questions contact Mark Bailey
at (816) 936-5591.




                                       Steven L. Schaeffer

Attachments
                                                                                             Attachment A
                                                                                               Page 1 of 7


                                            State of Montana
                               Schedule of Findings and Questioned Costs
                              For the Two Fiscal Years Ended June 30, 2001

Section II - Financial Statement Findings

Finding #1-1

Criteria: Internal Control Structure
The National Commission on Fraudulent Financial Reporting (the Treadway Commission) was created in
1985 by the joint sponsorship of five organizations, which composed the Committee of Sponsoring
Organizations (COSO):
          • The American Institute of Certified Public Accountants
          • The American Accounting Association
          • The Institute of Management Accountants (formerly the National Association of Accountants)
          • The Financial Executives Institute
In 1987, the Treadway Commission recommended COSO develop a common definition of internal control
and provide guidance to assist management to better control its organization. COSO issued a document titled
Internal Control - An Integrated Framework. The definition of internal control includes five elements: control
environment, risk assessment, control activities, information and communication, and monitoring.

Condition: The Montana Department of Public Health and Human Services' (department) audit report
discusses issues related to fiscal and legal accountability within the department. The department could have
prevented, or detected in a timely manner, many of these errors if it developed and implemented a sound
internal control structure as we recommended in our two prior audit reports. Management has not
implemented a control structure adequate to prevent, or timely detect and correct, errors in its financial
records and fails to comply with program requirements.

Questioned Costs: No questions costs were identified.

Context: The department spends in excess of $974 million per year for program benefits and administration.
Of that total, more than $675.7 million per year was provided by federal agencies. The department has offices
and facilities located geographically throughout the state of Montana and employs 2,702 budgeted full-time
equivalent employees working in nine divisions.

Effect: The department's financial management control structure is not able to prevent or detect many
errors. Because of this weakness, the department cannot ensure payments are made to eligible individuals or
to others for allowable purposes. The department's inefficient transaction processing does not accurately
support federal reporting, does not demonstrate accurate allocation of costs between state and federal
programs, and does not prevent discrepancies from existing between the state's primary accounting system
and the department's subsystems. The department is not meeting its fiscal and legal responsibilities.

Cause: According to department management, implementation of this recommendation has been hampered
by continuing turnover within the Fiscal Bureau; including turnover in supervisory positions, and unforeseen
resource demands for implementing the state's new accounting system. Since the issuance of the prior audit
report, the department has reorganized certain functions within the Operations and
                                                                                                Attachment A
                                                                                                  Page 2 of 7


Technology Division in order to improve operational efficiency and communications. The department has
also created a separate Fiscal Policy Office, which provides oversight and assistance in establishing internal
control and fiscal policy for the department. In addition, the department hired a deputy director in August
2001 who will be responsible for oversight of department operations, including financial matters, and an
internal auditor in October 2001.

Recommendation: We recommend the department implement a financial management control structure to
assure financial accountability and compliance with state and federal laws and regulations.
                                                                                              Attachment A
                                                                                                Page 3 of 7


                                            State of Montana
                               Schedule of Findings and Questioned Costs
                              For the Two Fiscal Years Ended June 30, 2001

Section II - Financial Statement Findings

Finding #1-2

Criteria: Montana state law, section 17-1-102(4), MCA, states in part, that all state agencies shall input all
necessary transactions to the accounting system before the accounts are closed at the end of the fiscal year in
order to present the receipt, use, and disposition of all money and property for which the agency is
accountable in accordance with generally accepted accounting principles.

Condition: The Montana Department of Public Health and Human Services (department) does not
completely reconcile its automated data processing subsystems to the state's primary accounting system
(SABHRS).

Questioned Costs: No questioned costs were identified.

Context: Department personnel use the Agency Wide Accounting and Client Systems (AWACS) to generate
vendor and provider payments. It is also used to prepare financial reports for federal grants. The department
uses the Child and Adult Protective Services (CAPS) system to record several types of activity.. One of the
modules in the CAPS system is used to account for foster care trust accounts. Foster Care IV-E expenditures
for fiscal years 1999-00 and 2000-01 were approximately $11 million. The department uses its Advanced
Revelation (AREV) system to establish accounts receivable for its laboratory operations. The Public Health
Laboratory utilizes the AREV system and had an accounts receivable amount of $231,666 as of June 30,
2001.

Effect: The department's financial records may be misstated and thus misleading to users and, federal reports
could be misstated.

Cause: AWACS - Department personnel noted that AWACS and SABHRS coding are not consistent in
some cases, which makes reconciling difficult. During the prior audit, the department had not completely
reconciled AWACS to the accounting records during fiscal year 1997-98 and 1998-99. Personnel said certain
adjustments to data made directly to the SABHRS are not made on AWACS.

        CAPS - The department did make some adjustment to SABHRS in fiscal year 1999-00, so that totals
in CAPS matched totals in SABHRS. However, the adjustments were not done based on reconciliation
between the two systems. Department personnel said that they were having problems with SABHRS
accepting journals so they made the decision to not track the errors and to adjust SABHRS using CAPS totals
as support.

         AREV - A monthly comparison between SABHRS and AREV is done to determine differences,
SABHRS is adjusted but the two systems do not necessarily reflect true balances. By adjusting SABHRS so it
reflects AREV amounts, the department is not considering transactions that are only recorded on SABHRS
and not AREV.
                                                                                           Attachment A
                                                                                             Page 4 of 7


Recommendation: We recommend the department implement policies and procedures to ensure timely
completion and resolution of reconciliations between the state's accounting system and the department's
various subsystems.
                                                                                          Attachment A
                                                                                            Page 5 of 7


                                           State of Montana
                              Schedule of Findings and Questioned Costs
                             For the Two Fiscal Years Ended June 30, 2001

Section III - Federal Award Findings and Questioned Costs

Finding #2-47 U.S. Department of Agriculture
               CFDA #10.551 & 10.561 Food Stamp Cluster
               CFDA #10.557 Special Supplemental Nutrition Program for Women, Infants, and
                             Children (WIC)
               CFDA #10.555 National School Lunch Program
               CFDA #10.567 Food Distribution Program on Indian Reservations

                U.S. Department of Education
                CFDA #84.126 Rehabilitation Services - Vocational Rehabilitation Grants to States

                U.S. Department of Health and Human Services
                CFDA #93.044 & 93.045 Aging Cluster
                CFDA #93.558 Temporary Assistance for Needy Families Program
                CFDA #93.563 Child Support Enforcement
                CFDA #93.568 Low Income Home Energy Assistance
                CFDA #93.575 & 93.596 Child Care Cluster
                CFDA #93.658 Foster Care - Title IV-E
                CFDA #93.667 Social Service Block Grant
                CFDA #93.775, 93.777, & 93.778 Medicaid Cluster
                CFDA #93.959 Block Grants for Prevention and Treatment of Substance Abuse
                CFDA #93.767 State Children's Insurance Program

                U.S. Department of Social Security Administration
                CFDA #96.001 Social Security - Disability Insurance

See the Schedule of Findings and Questioned Costs, Section II - Financial Statement Findings, Finding# 1-1
for details.
                                                                                          Attachment A
                                                                                            Page 6 of 7


                                           State of Montana
                              Schedule of Findings and Questioned Costs
                             For the Two Fiscal Years Ended June 30, 2001

Section 111 - Federal Award Findings and Questioned Costs

Finding #2-48 U.S. Department of Agriculture
               CFDA #10.551 & 10.561 Food Stamp Cluster
               CFDA #10.557 Special Supplemental Nutrition Program for Women, Infants, and
                               Children (WIC)
               CFDA #10.555 National School Lunch Program
               CFDA #10.567 Food Distribution Program on Indian Reservations

                U.S. Department of Education
                CFDA #84.126 Rehabilitation Services - Vocational Rehabilitation Grants to States

                U.S. Department of Health and Human Services
                CFDA #93.044 & 93.045 Aging Cluster
                CFDA #93.558 Temporary Assistance for Needy Families Program
                CFDA #93.563 Child Support Enforcement
                CFDA #93.568 Low Income Home Energy Assistance
                CFDA #93.575 & 93.596 Child Care Cluster
                CFDA #93.658 Foster Care - Title IV-E
                CFDA #93.667 Social Service Block Grant
                CFDA #93.775, 93.777, & 93.778 Medicaid Cluster
                CFDA #93.959 Block Grants for Prevention and Treatment of Substance Abuse
                CFDA #93.767 State Children's Insurance Program

                U.S. Department of Social Security Administration
                CFDA #96.001 Social Security - Disability Insurance

See the Schedule of Findings and Questioned Costs, Section II - Financial Statement Findings, Finding #1-2
for details.
                                                                                                                                         Attachment A
                                                                                                                                           Page 7 of 7

                                                  STATE OF MONTANA
                                                CORRECTIVE ACTION PLAN
                                       FOR THE TWO FISCAL YEARS ENDED JUNE 30, 2001
 Finding #      CFDA #                             CAP - Corrective Action Plan                                       Person              Target Date
                                                                                                                 Responsible for
                                                                                                                       CAP
Finding #2-43 10.551,    A new process is in place and staff has been cross-trained.                           Marie Matthews,        Completed
              10.561                                                                                           Fiscal Policy
                                                                                                               Advisor
Finding #2-44 Various    The department is reviewing both the TEAMS and CAPS reports to identify and           Marie Matthews,        June 30, 2002
                         remove unnecessary reports.                                                           Fiscal Policy
                                                                                                               Advisor
Finding #2-45 10.555,    The Office of Public Instruction contacted the four counties that were, at the time   Julia Dilly, FSB       July 1, 2002
              81.010,    of the audit, still receiving their funds by warrant rather than electronic funds     Administrator
              84.027,    transfer (EFT). Three of those counties now accept EFT payments; Gallatin
              84.078     county is our only hold out. We continue to call and write the Gallatin County
                         Treasurer, asking that she reconsider.
Finding #2-46 17.225     The Department of Revenue will modify the department’s computer system to             Jeff Miller,           Implemented March
                         transfer the Unemployment Insurance experience rating from previous employers         Administrator,         2002
                         to successor employers, thereby ensuring rates are calculated properly.               Policy Management
Finding #2-47 Various    A workplan is in process to improve all areas of financial control.                   Marie Matthews,        December 31, 2002
                                                                                                               Fiscal Policy
                                                                                                               Advisor
Finding #2-48 Various    The department has established work groups to review reconciliation activities and    Marie Matthews,        June 30, 2002
                         establish additional procedures as necessary per system. Systems have been            Fiscal Policy
                         prioritized according to risk and are being addressed in that order.                  Advisor
Finding #2-49 Various    The Department of Environmental Quality developed and adopted a written               Centralized Services   April 2000
                         Financial Management Control Plan. Agency provides training on policies and           Division
                         procedures and has improved its new employee orientation process to promote the       Administration
                         policies and procedures and the information available on the department’s Intranet.
                         Fiscal Management Bureau staff have established desk manuals.
Finding #2-50 Various    The Department of Environmental Quality developed and implemented written             Centralized Services   April 2000
                         policy and procedures on cash management. In April 2001 the electronic cash           Division
                         receipting log and chain of custody record were implemented and staff was trained     Administration
                         on the system.
Finding #2-51 84.243     The Office of Commissioner of Higher Education’s Director of Accounting and           Jackie Grenfell,       March 1, 2002
                         Budgeting will approve all fiscal yearend-adjusting entries. Tech-Prep Consortium     OCHE Federal
                         will pay all presenter fees, as required by federal regulations.                      Accountant
                                                                                               Attachment B
                                                                                               Page 1 of 10


                                            State of Montana
                               Schedule of Findings and Questioned Costs
                              For the Two Fiscal Years Ended June 30, 2001

Section II - Financial Statement Findings

Finding #1-6     Various Federal Agencies
                 CFDA # Various

Criteria: State law, Section 17-1-102(4), MCA requires that before the accounts are closed at fiscal yearend,
agencies shall input all transactions to present the receipt, use, and disposition of all money and property in
accordance with generally accepted accounting principles. State law, Section 17-1-111, MCA, also provides
the general fiscal duties of the state treasurer include receiving and accounting for all money belonging to the
state and keeping an account of all money received and disbursed.

Condition: The Department of Administration (department) is responsible for reconciling activity within all
bank accounts for the State of Montana. Since the implementation of Statewide Accounting, Budgeting, and
Human Resource System (SABHRS) beginning in fiscal year 2000, the department has been unable to
reconcile its bank account activity to the accounting records.

Questioned Costs: No questioned costs identified.

Context: The State's General Purpose Financial Statements reported approximately $156 million and $164
million in cash deposits at June 30, 2000 and June 30, 2001, respectively. In March 2001, the department
made adjustments exceeding $20 million to the financial statements. As of January 2002, the department
recorded a final adjustment of approximately $755,000 in the General Fund.

Effect: The ability to promptly reconcile bank records to the accounting records is a key control Which
management needs to ensure the accounting records accurately reflect the cash balances. The unreconciled
difference between the accounting records and the bank records on October 10, 2001 was $323,229.

Cause: The conversion to SABHRS created unforeseen problems which caused delays in agencies processing
their accounting information. In addition, the department has not implemented procedures to facilitate timely
reconciliation between bank records and accounting records.

Recommendation: We recommend the department implement procedures to promptly reconcile cash
balances on the accounting records to the bank records as required by state law.
                                                                                             Attachment B
                                                                                             Page 2 of 10


                                           State of Montana
                              Schedule of Findings and Questioned Costs
                             For the Two Fiscal Years Ended .June 30, 2001

Section III - Federal Award Findings and Questioned Costs

Finding #2-2     U.S. Department of Agriculture
                 CFDA #10.557 Special Supplemental Nutrition Program for Women, Infants and
                                 Children (WIC)
                 CFDA #10.555 National School Lunch Program

                 U.S. Department of Education
                 CFDA #84.126 Rehabilitation Services-Vocational Rehabilitation Grants to States

                 U.S. Department of Health and Human Services
                 CFDA #93.468 Low Income Home Energy Assistance
                 CFDA #93.558 Temporary Assistance for Needy Families Program
                 CFDA #93.596 Child Care Mandatory and Matching Funds of the Child Care and
                                 Development
                 CFDA #93.658 Foster Care - Title IV-E
                 CF DA #93.667 Social Services Block Grant
                 CFDA #93.778 Medicaid Assistance Program

Criteria: The Cash Management Improvement Act (CMIA) agreement between Montana and the U.S.
Treasury Department requires the state to calculate interest owed to the federal government as a result of not
following the specifications outlined in the agreement.

Condition: The Department of Public Health and Human Services (department) personnel did not calculate
the beginning cash balances consistently among the different programs. . The total disbursements reported on
the spreadsheets did not agree to the total expenditures recorded on the accounting system. The ending cash
balances calculated through the spreadsheets did not agree to the balances in the cash accounting at June 30,
2000, and the difference could not be attributed to non-federal sources of cash. In addition to systematic
inconsistencies involving beginning cash balances and recorded expenditures, we found a keying error for a
Medicaid draw. The interest calculation spreadsheet for. Medicaid reported a cash draw of $12,805,120 when
the actual cash draw was $12,925. The error occurred when the employee who prepared the spreadsheet,
intending to enter a formula, $12,805 + $120, did not enter the + sign.

Questioned Costs: No questioned costs were identified.

Context: We reviewed the interest calculation spreadsheets for eight of the department's nine major federal
programs covered by the CMIA agreement in fiscal year 1999-00.

Effect: Misstating balances, cash disbursement, or collection activity could result in erroneous CMIA interest
calculations.

Cause: Due to a lack of internal controls, errors were made on the spreadsheets and not detected.
                                                                                            Attachment B
                                                                                            Page 3 of 10


Recommendation: We recommend the department implement controls to ensure the cash management
interest obligation calculation spreadsheets submitted to the Department of Administration reconcile with the
accounting records and are accurate.
                                                                                             Attachment B
                                                                                             Page 4 of 10


                                            State of Montana
                               Schedule of Findings and Questioned Costs
                              For the Two Fiscal Years Ended June 30, 2001

Schedule III - Federal Award Findings and Questioned Costs

Finding #2-3 U.S. Department of Agriculture
             CFDA #10.551 & 10.561 Food Stamp Cluster
             CFDA #10.557 Special Supplemental Nutrition Program for Women, Infants, and
                             Children (WIC)
             CFDA #10.555 National School Lunch Program

                 U.S. Department of Education
                 CFDA #84.126 Rehabilitation Services - Vocational Rehabilitation Grants to States

                 U.S. Department of Health and Human Services
                 CFDA #93.468 Low Income Home Energy Assistance
                 CFDA #93.558 Temporary Assistance for Needy Families Program
                 CFDA #93.596 Child Care Mandatory and Matching Funds of the Child Care and
                                 Development
                 CFDA #93.658 Foster Care - Title IV-E
                 CFDA #93.667 Social Services Block Grant
                 CFDA #93.778 Medicaid Assistance Program
                 CFDA #93.959 Block Grants for Prevention & Treatment of Substance Abuse
                                 (SAPT)

Criteria: Under the terms of the Cash Management Improvement Act (CMIA) agreement (section 7.9), the
Montana Department of Public Health and Human Services (department) must draw funds for each program
based on a warrant clearance pattern established by the Montana Department of Administration. OMB
Circular A-102, Paragraph 2a states "Agency methods and procedures for transferring funds shall minimize
the time elapsing between transfer to recipients of grants and cooperative agreements and the recipient's need
for the funds."

Condition: For the major federal programs covered by the CMIA agreement, we observed instances where
the department's fiscal personnel drew cash earlier than the clearance pattern established in the agreement
and significantly more instances where they drew cash later than. the clearance pattern established in the
agreement. We also noted cash draws which were consistently calculated in a manner contrary to that in the
CMIA agreement and expenditures which were not considered in the cash draw calculations for any program.
The following paragraphs summarize the cash management problems we found.

    ·   The Social Services Block Grant made 172 draws. Of these, only 17 were made in accordance with
        the CMIA agreement. The remaining 155 cash draws were late by as much as 14 days.

    ·   We reviewed the department's spreadsheet of daily cash receipts and disbursements during fiscal year
        1999-00 for administrative costs of the Special Supplemental Nutrition Program for Women, Infants,
        and Children (WIC). We identified a seven-month period where no cash draws were made. The
        department should have made 25 draws under the CMIA clearance
                                                                                             Attachment B
                                                                                             Page 5 of 10


            pattern in effect during that period. When the department made a draw to cover administrative
            costs of the WIC program, it was for $2,099,520.

        ·   Medicaid matching rates vary based on the date the service was provided. Department personnel
            calculate Medicaid draws based on service center reports of total warrant and electronic funds
            transfer amounts, which they multiply times the current matching rate to estimate the federal
            share. Once a month, the service center provides the actual matching amounts-based on the
            dates of the services paid. Department personnel reconcile the estimated amounts based on the
            current rate to the actual amount based on service data. The reconciliation for June 2001 resulted
            in an accounting adjustment that increased the federal share and reduced the state share of match
            by $899,143. The CMIA agreement requires the draws to be based on actual, not estimated
            disbursements.

        ·   Cash draws for TANF benefits and administrative costs were made based on estimated
            disbursements. The CMIA agreement required draws be based on actual disbursements. In one
            instance, department personnel drew $1,785,564 instead of actual benefit expenditures of
            $1,808,073 one day late.

        ·   Department personnel calculate cash draws based on their calculations on cash disbursement
            transactions, without considering transactions that should offset these draws, such as a
            correction of matching rates or a return of benefit payments for which an individual was found
            to be ineligible after payment was disbursed. Because cash was drawn for these disbursements,
            then returned, the return funds should be used to reduce the next draw.

For the major federal programs not covered by the CMIA agreement (Food Stamps and the Block Grant for
the Prevention and Treatment of Substance Abuse),. we observed no routine draw pattern and they
consistently had negative cash balances during the audit period. We also found the department's fiscal
personnel did not consider the cash balance created through inter-entity loans in calculating the amount of
cash to draw for these programs. The existence of the inter-entity loans for these programs often made the
cash balance for the programs positive when the balance of federal cash was negative. In other situations, the
existence of inter-entity loans did not prevent negative cash balances from occurring.

Questioned Costs: No questioned costs were identified.

Context: The department's expenditures exceeded $888 million in fiscal year 1999-00 and $974 million in
fiscal year 2000-01, or an average of over $3.4 million and $3.7 million, respectively, per working day. The
federal government funded 69 percent of these expenditures. In fiscal year 2000-01, the department recorded
over $631 million in federal revenue, a major component of the state's revenue.

Effect: The department is not in compliance with CMIA agreement requirements or OMB Circular A-133,
cash management requirements. In a state agency this size, it is important to manage cash flow to ensure cash
is available to pay warrants and to maximize investment earnings to the various financing sources.

Cause: The department's controls during the audit period were not adequate to ensure compliance with the
federal cash management requirements and ensure timely recording of financial activity used as a basis for
cash draws.

Recommendation: We recommend the department:
                                                                                   Attachment B
                                                                                   Page 6 of 10


A. Implement effective controls to ensure compliance with federal cash management requirements.
B. Draw federal funds in accordance with federal regulations.
                                                                                              Attachment B
                                                                                              Page 7 of 10


                                            State of Montana
                               Schedule of Findings and Questioned Costs
                              For the Two Fiscal Years Ended June 30, 2001

Section III - Federal Award Findings and Questioned Costs

Finding #2-27 U.S. Department of Health and Human Services
              CFDA #93.775, 93.777, 93.778 Medicaid Cluster
              CFDA #93.658 Foster Care - Title IV-E
              CFDA #93.563 Child Support Enforcement

Criteria: 45 CFR 95.621(f) require the Montana Department of Public Health and Human Services
(department) establish procedures for review and analysis of data processing and system security issues for
systems used to administer Medicaid, Child Support Enforcement and Title IV-E Foster Care. These
regulations include directives regarding risk analyses to ensure both new and existing systems include
appropriate, cost effective controls. The department is required to perform risk analysis whenever significant
system changes occur and to review system security installations on a biennial basis. At a minimum, the
reviews are to address evaluation of physical and data security operating procedures, and personnel practices.
The department is to maintain reports on the biennial reviews, together with pertinent supporting
documentation, for U.S. Department of Health and Human Services onsite reviews.

Condition: The automated data processing system, which impact the above programs, are Montana Medicaid
Management Information System, The Economic Assistance Management System, System for the
Enforcement and Recovery of Child Support, Child and Protective Services, Agency Wide Accounting and
Client System and the state's accounting system. The department has just started to gather information on all
systems and their related security. The department has not completed the required risk analysis.

Questioned Costs: No questioned costs were identified.

Context: OMB Circular A-133 Compliance Supplement identifies this regulation as a special test and
provision for the Medicaid Cluster. Total expenditures for the Medicaid Cluster in the fiscal years 1999-00
and 2000-01 were approximately $347.6 million and $385.9 million, respectively.

Effect: The department is not in compliance with federal regulations for review and analysis of data
processing and system security issues for systems.

Cause: Department management was made aware of these requirements during the prior audit but has not
established a system of review and risk analysis.

Recommendation: We recommend the department develop a system security and risk review plan and
document the results of the review in order to comply with federal regulations.
                                                                                             Attachment B
                                                                                             Page 8 of 10


                                           State of Montana
                              Schedule of Findings and Questioned Costs
                             For the Two Fiscal Years Ended June 30, 2001

Section III - Federal Award Findings and Questioned Costs

Finding #2-28 U.S. Department of Health and Human Services
              CFDA # Various

Criteria: OMB Circular A-102 Section 1, Part d requires agencies to establish procedures for the effective use
of the federal List of Parties Excluded from Federal Procurement or Nonprocurement programs to ensure
they do not award assistance to listed parties.

Condition: The Department of Public Health and Human Services (department) makes payments to medical
service providers through the Medicaid Management Information System (MMIS) and payments to certain
other sub grantees and vendors through Agency Wide Accounting and Client System (AWACS). When the
department renews certain service contracts by extending the date of the original contract, the department
does not check suspension and debarment status of the contractor and does not update suspension and
debarment contract language.

Questioned Costs: No questioned costs were identified.

Context: Contracts for service organization, data processing enhancements, and renewals of such service
contracts are not reviewed for updated language required by department's legal counsel. These constitute a
small number of higher dollar contracts.

Effect: The department is not in compliance with federal regulations regarding certification that vendors
have not been suspended or debarred.

Cause: The department's legal department set contract requirements, but program staff have responsibility to
include required language in the contracts executed by the department.

Recommendation: We recommend the department develop an approval process to ensure the department is
not contracting with suspended or debarred parties.
                                                                                            Attachment B
                                                                                            Page 9 of 10


                                           State of Montana
                              Schedule of Findings and Questioned Costs
                             For the Two Fiscal Years Ended June 30, 2001

Section III - Federal Award Findings and Questioned Costs

Finding #2-29 U.S. Department of Health and Human Services (HHS)
              CFDA #93.959 Block Grants for Prevention and Treatment of Substance Abuse (SAPT)

Criteria: 45 CFR 96.124(a)(1) and (2) requires states to earmark a portion of the Block Grants for prevention
and treatment of alcohol and other drugs. The OMB Circular A-133 compliance supplement for SAPT states
that a state is required to obligate all of the funds awarded during the fiscal year of the award. Amounts
obligated by the state which remain unexpended at the end of the fiscal year for which the amounts were
awarded shall remain available until the end of the succeeding fiscal year.

Condition: When we reviewed the Department of Public Health and Human Services (department) contract,
expenditure, and cash draw records, we were unable to verify that expenditures occurred in the period for
which the grant award was available and that limitations on expenditures by earmarked category were
satisfied. The department did not record SAPT grant expenditures by grant award year and earmarked
category on the state's accounting records.

Questioned Costs: No questioned costs were identified.

Context: The department made SAPT expenditures of $4,632,762 and $4,890,430 in fiscal years 1999-00 and
2000-01, respectively.

Effect: Department controls do not provide a means for agency personnel to monitor and ensure compliance
with SAPT earmarking provisions and period of availability requirements.

Cause: Department personnel set up accounts on the state's accounting records in January 2001, to track
expenditure by grant award year. Prior to that time, the accounting records did not accumulate expenditures
by award year.

Recommendation: We recommend the department implement procedures to track earmarked expenditure
categories by grant year for the SAPT grant and monitor expenditures to ensure each charge is properly
obligated or paid within the period of availability of the grant.
                                                                                           Attachment B
                                                                                           Page 10 of 10


                                           State of Montana
                              Schedule of Findings and Questioned Costs
                             For the Two Fiscal Years Ended June 30, 2001

Section III - Federal Award Findings and Questioned Costs

Finding#2-34 U.S. Department of Health and Human Services (HHS)
             CFDA #93.667 Social Services Block Grant (SSBG)

Criteria: 45 CFR 92.20, Part b2 requires grantees to maintain records which adequately identify the source
and application of funds provided for financial assisted activities including awards and authorizations,
obligations, unobligated balances, assets, liabilities, outlays or expenditures, and income.

Condition: The financial data reported to HHS by the Department of Public Health and Human Services
(department) was not supported by the accounting records. This includes a carryforward on its SSBG
program report and an expenditure report for June 30, 2000, which did not include Temporary Assistance for
Needy Family Program (TANF) funds transferred to SSBG and spent under SSBG regulations.

Questioned Costs: No questioned costs were identified.

Context: The department spent SSBG assistance of $9,378,243 and $9,750,380 in fiscal years 1999-00 and
2000-01, respectively.

Effect: The department submitted unsubstantiated reports to the federal government.

Cause: Department personnel indicated the error occurred because three divisions now use SSBG funds
instead of one as in previous years.

Recommendation: We recommend the department establish procedures to ensure federal Social Services
Block Grant reports are supported by the accounting records.
                 Overview of the Office of the Inspector General


                                       Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of
the Social Security Administration’s (SSA) programs and makes recommendations to
ensure that program objectives are achieved effectively and efficiently. Financial audits,
required by the Chief Financial Officers' Act of 1990, assess whether SSA’s financial
statements fairly present the Agency’s financial position, results of operations and cash
flow. Performance audits review the economy, efficiency and effectiveness of SSA’s
programs. OA also conducts short-term management and program evaluations focused
on issues of concern to SSA, Congress and the general public. Evaluations often focus
on identifying and recommending ways to prevent and minimize program fraud and
inefficiency, rather than detecting problems after they occur.

                              Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General
(OIG) by providing information resource management; systems security; and the
coordination of budget, procurement, telecommunications, facilities and equipment, and
human resources. In addition, this office is the focal point for the OIG’s strategic
planning function and the development and implementation of performance measures
required by the Government Performance and Results Act. OEO is also responsible for
performing internal reviews to ensure that OIG offices nationwide hold themselves to
the same rigorous standards that we expect from SSA, as well as conducting
investigations of OIG employees, when necessary. Finally, OEO administers OIG’s
public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and
current activities and their results to the Commissioner and Congress.


                                Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related
to fraud, waste, abuse, and mismanagement of SSA programs and operations. This
includes wrongdoing by applicants, beneficiaries, contractors, physicians, interpreters,
representative payees, third parties, and by SSA employees in the performance of their
duties. OI also conducts joint investigations with other Federal, State, and local law
enforcement agencies.

                           Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the
Inspector General on various matters, including: 1) statutes, regulations, legislation,
and policy directives governing the administration of SSA’s programs; 2) investigative
procedures and techniques; and 3) legal implications and conclusions to be drawn from
audit and investigative material produced by the OIG. The Counsel’s office also
administers the civil monetary penalty program.
